U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 5, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Doe 1 v. Federal Election Commission, No. 19-484
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 16,
2019. The government's response is now due, after one extension, on December 16, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 15, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioners does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0484
JOHN DOE 1, ET AL.
FEC

PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
MICHAEL DRY
VINSON & ELKINS
2200 PENNSYLVANIA AVE., NW
SUITE 500 WEST
WASHINGTON, DC 20037
WILLIAM W. TAYLOR, III
ZUCKERMAN SPAEDER LLP
1800 M STREET, NW
SUITE 1000
WASHINGTON, DC 20036

